<html>
<title> - COMPOSITE MATERIALS: STRENGTHENING INFRASTRUCTURE DEVELOPMENT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]
















                          COMPOSITE MATERIALS:
                STRENGTHENING INFRASTRUCTURE DEVELOPMENT

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 18, 2018

                               __________

                           Serial No. 115-55

                               __________

 Printed for the use of the Committee on Science, Space, and Technology



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





       Available via the World Wide Web: http://science.house.gov
       
       
       
       
       
       
                                    ______
       		 
                            U.S. GOVERNMENT PUBLISHING OFFICE 
       		 
       29-782 PDF                WASHINGTON : 2018                 
             
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
RANDY K. WEBER, Texas                DONALD S. BEYER, JR., Virginia
STEPHEN KNIGHT, California           JACKY ROSEN, Nevada
BRIAN BABIN, Texas                   JERRY McNERNEY, California
BARBARA COMSTOCK, Virginia           ED PERLMUTTER, Colorado
BARRY LOUDERMILK, Georgia            PAUL TONKO, New York
RALPH LEE ABRAHAM, Louisiana         BILL FOSTER, Illinois
DANIEL WEBSTER, Florida              MARK TAKANO, California
JIM BANKS, Indiana                   COLLEEN HANABUSA, Hawaii
ANDY BIGGS, Arizona                  CHARLIE CRIST, Florida
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
                                 ------                                

                       Subcommittee on Oversight


                  RALPH LEE ABRAHAM, Louisiana, Chair
FRANK D. LUCAS, Oklahoma             DONALD S. BEYER, Jr., Virginia
BILL POSEY, Florida                  JERRY McNERNEY, California
THOMAS MASSIE, Kentucky              ED PERLMUTTER, Colorado
BARRY LOUDERMILK, Georgia            EDDIE BERNICE JOHNSON, Texas
ROGER W. MARSHALL, Kansas
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
LAMAR S. SMITH, Texas
                                 ------                                

                Subcommittee on Research and Technology

                 HON. BARBARA COMSTOCK, Virginia, Chair
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             ELIZABETH H. ESTY, Connecticut
STEPHEN KNIGHT, California           JACKY ROSEN, Nevada
RALPH LEE ABRAHAM, Louisiana         SUZANNE BONAMICI, Oregon
DANIEL WEBSTER, Florida              AMI BERA, California
JIM BANKS, Indiana                   DONALD S. BEYER, JR., Virginia
ROGER W. MARSHALL, Kansas            EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas

































                            C O N T E N T S

                             April 18, 2018

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Daniel Webster, Subcommittee on 
  Research and Technology, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     4
    Written Statement............................................     5

Statement by Representative Daniel Lipinski, Ranking Member, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     6
    Written Statement............................................     8

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    62
    Written Statement............................................    63

                               Witnesses:

Dr. Joannie Chin, Deputy Director, Engineering Laboratory, NIST
    Oral Statement...............................................    11
    Written Statement............................................    13

Dr. Hota V. GangaRao, Wadsworth Distinguished Professor, Statler 
  College of Engineering, West Virginia University
    Oral Statement...............................................    21
    Written Statement............................................    23

Dr. David Lange, Professor, Department of Civil and Environmental 
  Engineering, University of Illinois at Urbana-Champaign
    Oral Statement...............................................    27
    Written Statement............................................    29

Mr. Shane E. Weyant, President and CEO, Creative Pultrusions, 
  Inc.
    Oral Statement...............................................    39
    Written Statement............................................    41

Discussion.......................................................    58

             Appendix I: Answers to Post-Hearing Questions

Dr. Joannie Chin, Deputy Director, Engineering Laboratory, NIST..    70

Dr. Hota V. GangaRao, Wadsworth Distinguished Professor, Statler 
  College of Engineering, West Virginia University...............    76

Dr. David Lange, Professor, Department of Civil and Environmental 
  Engineering, University of Illinois at Urbana-Champaign........    81

Mr. Shane E. Weyant, President and CEO, Creative Pultrusions, 
  Inc............................................................    82
 
                          COMPOSITE MATERIALS:
               STRENGTHENING INFRASTRUCTURE DEVELOPMENT

                              ----------                              


                       WEDNESDAY, APRIL 18, 2018

                  House of Representatives,
            Subcommittee on Research and Technology
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:08 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Daniel 
Webster presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Webster. The Committee on Science, Space, and 
Technology will come to order. Without objection, the Chair is 
authorized to declare recesses of the Committee at any time.
    Good morning. Everyone's here. Welcome to today's hearing 
entitled, ``Composite Materials: Strengthening Infrastructure 
Development.'' I recognize myself for five minutes for an 
opening statement.
    The purpose of this morning's hearing is to review a 
National Institute of Standards and Technology (NIST) report on 
overcoming barriers to the adoption of composites in 
sustainable infrastructure and discuss the value of developing 
composite standards for infrastructure applications.
    While not widely adopted yet, composites have been used in 
select construction projects across the country. As we will 
hear from our experts today, fiber-reinforced polymer 
composites produced in the United States offer durable, 
sustainable, and cost-effective solutions in a variety of 
infrastructure applications as diverse as dams, levees, 
highways, bridges, tunnels, railroads, harbors, utility poles 
and buildings. However, without proper design guidelines and 
data tables to harmonize standards and create a uniform 
guidance, the practical use of composites to build durable and 
cost-effective infrastructure will continue to lag.
    The National Institute of Standards and Technology is well-
poised to lead research to provide the evidence and data needed 
to set industry standards and design guidelines. NIST has a 
deep and varied expertise in advanced composites, which I look 
forward to hearing more about in the hearing. It is my 
understanding that there are over a dozen projects across NIST 
that work to measure, model, and predict the performance of 
advanced composites for a variety of applications.
    I'm well aware of the challenges our nation's 
infrastructure is facing and the anticipated cost of its 
restoration. I look forward to learning more about the 
potential value of using composites in infrastructure and the 
economic case for composites as an alternative or supplement to 
conventional materials in infrastructure projects.
    I appreciate you all for taking the time to join me for 
this hearing. As the Administration and Congress begin to 
consider how to tackle the nation's infrastructure challenges, 
it is important to understand what role composites can play.
    [The prepared statement of Mr. Webster follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Webster. I now recognize the Ranking Member from 
Illinois, Mr. Lipinski, for an opening statement.
    Mr. Lipinski. Thank you. I want to thank Chairwoman 
Comstock in her absence today for holding the hearing on this 
important topic, and I want to thank the witnesses for being 
here to share your thoughts on the use of advanced composite 
materials for major infrastructure.
    Much of the nation's major infrastructure is nearing or has 
passed the end of its design lifespan. The American Society of 
Civil Engineers' 2017 Infrastructure Report Card gave our 
nation's infrastructure a grade of D-plus based on assessments 
of capacity, condition, resilience, innovation, and other 
criteria. And our current infrastructure is under increased 
strain year after year as our population grows. We must find a 
way to ensure the safety of our nation's expanding population 
as demands on our roads, bridges, utilities, and other 
essential infrastructure increase.
    I sit on the House Transportation Infrastructure Committee, 
and I understand that the status quo is clearly not acceptable. 
In addition, we need to examine our approach to rebuilding 
infrastructure as climate change and other factors drive 
increases in the intensity of wildfires, hurricanes, and other 
extreme events wreaking havoc on dams, bridges, above- and 
below-ground utilities, and other essential structures. These 
are long-term challenges that require long-term solutions. But 
right now, we don't have the funding necessary to close 
investment gaps and build the infrastructure we know that we 
need.
    As we make plans to shore up our infrastructure and build 
for the future, we must take advantage of all the tools at our 
disposal. This includes using innovative technologies and 
emerging materials where they offer the best value for a 
project. Materials such as fiber-reinforced polymer composites 
or advanced composites which are--which we are examining in 
today's hearing, they play a key role in how the nation 
addresses its challenges under constrained resources.
    Decades of federal and private sector research and 
development and investment in advanced composites has resulted 
in a significant use of these materials in some sectors such as 
defense, aerospace, automobile, and energy industries. While 
composites have also been used in some construction and 
infrastructure applications such as strengthening concrete, 
making bridge repairs, and building bridge decks, they haven't 
been used as widely for infrastructure as they have been in 
other sectors.
    I commend NIST for producing the report we are reviewing in 
today's hearing. They brought together federal, private, and 
university partners to identify and examine how to overcome 
barriers to adoption of composites and sustainable 
infrastructure, including challenges to developing a skilled 
workforce.
    I look forward to hearing from Dr. Lange and others about 
ways we can incorporate advanced composites into our 
engineering education and training programs to make sure that 
all those involved in designing and building our infrastructure 
have the knowledge and skills to use whichever material is best 
for the job. This will require updates for undergraduate and 
graduate engineering curriculum, training programs for the 
construction trades, and professional development plans in a 
wide range of industries. Doing this successfully necessitates 
the cooperation of governments, educational institutions, and 
industry. I'm glad we have representatives from all these 
sectors here today.
    As we examine ways to increase the use of advanced 
composites, it is important that we don't lose sight of the 
strength of traditional materials like concrete and steel. Both 
repair and upgrades of existing infrastructure and for new 
projects, we need to have safety and design standards in place 
to allow engineers to choose the best material for the job and 
allow novel and traditional materials to work together. Finding 
smart ways to improve our roads, bridges, pipelines, and other 
infrastructure is a major priority of mine. I look forward to 
your testimony today. Thank you, and I yield back.
    [The prepared statement of Mr. Lipinski follows:]


 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
       
    Mr. Webster. All right. Now, I'll introduce our witnesses 
for today. First, Dr. Joannie Chin, our first witness today, is 
the Deputy Director of an the Engineering Laboratory at NIST, 
one of the seven resource labs within NIST. As Deputy Director, 
Dr. Chin provides programmatic and operational guidance for the 
Engineering Lab and includes nearly 500 federal employees and 
guest researchers from industry, universities, and research 
institutes. It is the Engineering Lab's mission to promote the 
development and dissemination of advanced manufacturing and 
construction technology guidelines and services to the U.S. 
manufacturing and construction industry.
    Prior to being Deputy Director, Dr. Chin previously served 
as a leader of the Polymeric Materials Group. Dr. Chin received 
a Bachelor of Science in polymer science and engineering from 
Case Western Reserve University. She received a Master of 
Science in chemistry, as well as a Ph.D. in materials 
engineering science from Virginia Polytechnic Institute and 
State University.
    Our second witness is Dr. Hota GangaRao, a Wadsworth 
Distinguished Professor in the Statler College of Engineering 
at West Virginia University. He also serves as the Director of 
the Constructed Facility Center and Director of the National 
Science Foundation's Industry-University Cooperative Research 
Center for composites infrastructure at West Virginia 
University.
    Dr. GangaRao specializes in fiber-reinforced polymer 
composites, bridge structures, advanced materials research, 
composites for blasting, fire resistance, and others. Dr. 
GangaRao received his Ph.D. in civil engineering from North 
Carolina State University and is a registered professional 
engineer.
    Mr. Lipinski, do you want to introduce Dr. Lange?
    Mr. Lipinski. Thank you. It is my pleasure to introduce Dr. 
David Lange, Professor of Civil and Environmental Engineering 
and Director of the Center for--of Excellence for Airport 
Technology at the University of Illinois at Urbana-Champaign. 
Dr. Lange also serves as President of the American Concrete 
Institute, Technical Society, and Standards Developing 
Organization.
    Dr. Lange holds a B.S. in civil engineering from Valparaiso 
University, an MBA from Wichita State University, and a Ph.D. 
in civil engineering from my alma mater, Northwestern 
University. And I almost majored in civil engineering but I 
went with mechanical there as an undergrad, so--he's--Dr. Lange 
has been a member of the faculty at the University of Illinois 
for the past 25 years and has earned numerous awards and 
honors, including the prestigious NSF Career Award, a Fulbright 
Award, and several accolades for his publications and teaching.
    Dr. Lange's research focuses on interface between the 
structural engineering and materials science of concrete and 
includes topics such as airport pavement, recycled concrete, 
and fiber reinforcement of concrete. His research group has 
played an important role in the O'Hare Airport Modernization 
Program, coming up with design concepts that save the Chicago 
Department of Aviation millions of dollars. I also understand 
that when he's not in the lab, Dr. Lange enjoys spending time 
with his five-month-old granddaughter and is looking forward to 
another granddaughter on the way, and congratulations. And I 
want to thank you for being with us today, Dr. Lange, and I 
look forward to your testimony.
    Mr. Webster. Our final witness today is Mr. Shane Weyant, 
President and CEO of Creative Pultrusions, Inc. located in Alum 
Bank, Pennsylvania. Creative Pultrusions is a subsidiary of 
Hill & Smith Holdings, PLC, an international group with leading 
positions in the design, manufacture, and supply of 
infrastructure products and galvanizing services. Creative 
Pultrusions is a leader in the manufacture of fiberglass-
reinforced polymer protrusion products. Mr. Weyant has been 
with Creative Pultrusions for nearly 30 years. He received a 
Bachelor of Science in economics from Frostburg State 
University, where he graduated magna cum laude.
    And now, Dr. Chin, you have five minutes to present your 
testimony.

                 TESTIMONY OF DR. JOANNIE CHIN,

                        DEPUTY DIRECTOR,

                  ENGINEERING LABORATORY, NIST

    Dr. Chin. Chairman Webster, Ranking Member Lipinski, and 
Members of the Subcommittee, thank you for this opportunity to 
discuss NIST's role in promoting the adoption of advanced 
composites to renew our infrastructure and to increase its 
resilience in communities prone to or recovering from 
disasters.
    At NIST, our world-class experts use unique facilities to 
measure materials with increasing precision and characterize 
new materials for the first time. We help American industries 
develop, test, and manufacture products with features that 
outperform previous generations. Our broad program in advanced 
materials include advanced composites; that is, polymers 
reinforced with fibers or other additives.
    Advanced composites can play a significant role in renewing 
our nation's crumbling infrastructure and help existing 
infrastructure be more resilient to both usual wear and natural 
disasters. Compared to traditional materials, advanced 
composites are often stronger, lighter, and longer-lasting, 
thereby offering many cost savings, including fewer days lost 
to repair and maintenance. That means fewer hours stuck in 
traffic detoured around bridges, roads, and levees under 
repair, fewer days in the dark due to broken utility poles, and 
more efficient movement of the goods and services that underpin 
our economy and quality of life.
    The American advanced composites industry contributes about 
$22 billion to the economy each year, and although we currently 
lead the world in advanced composite technology, adoption of 
these materials for infrastructure has been slower in the 
United States than in Canada and Europe. To understand the 
barriers to using these materials in the United States, NIST 
convened a workshop in February 2017 with infrastructure 
engineers, designers, and owners, in partnership with the 
American Composites Manufacturers Association. This May, we 
will hold a similar workshop with stakeholders interested in 
using advanced composites to reinforce existing structures to 
make them more resilient to seismic events.
    So from the NIST ACMA workshop, we learned that many owners 
and design professionals don't yet have enough confidence in 
the reliability and long-term durability of advanced composites 
to specify their use in new structures, as well as to repair 
damaged ones. We also learned that designers and engineers need 
data and design guidance so they can provide appropriate safety 
margins, while maximizing the weight and cost savings of these 
materials.
    NIST has the expertise to address these needs. We have been 
studying advanced composites since the 1980s and are a leader 
in characterizing the performance and properties of advanced 
composites on all scales from nano to macro. For example, to 
study durability, we have developed sensors that visualize the 
molecular nature of damage and composites. We also have unique 
device that accelerates the effects of weathering on materials 
and large-scale testing facilities that evaluate the effects of 
strong loads on advanced composite structures.
    Our experience providing a data infrastructure for the 
Materials Genome Initiative is now helping members of the 
advanced composites community capture and share information on 
material properties. We will assist the advanced composites 
community as they establish a clearinghouse of curated existing 
design guides and data from completed projects, which will 
inform additional science-based codes and standards.
    Our Community Resilience Program provides guidance to 
architects, design engineers, and community leaders to enable 
critical decisions about which materials help communities 
recover rapidly and build back better. While NIST is not a 
regulatory agency, we have long provided strong scientific 
foundations for the consensus standards developed by industry. 
NIST staff members provide leadership and technical expertise 
to more than 1,800 positions on committees for ASTM 
International, the international organization for 
standardization and other standards development organizations.
    So we greatly appreciate the Members of this Committee and 
others in Congress for their support of federal acceleration of 
the adoption of advanced composites for infrastructure, helping 
to keep our nation globally competitive and economically secure 
and contributing to our quality of life. I am happy to answer 
any questions you may have.
    [The prepared statement of Dr. Chin follows:]


  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
          
    Mr. Webster. I recognize Dr. GangaRao for his five minutes.

               TESTIMONY OF DR. HOTA V. GANGARAO,

               WADSWORTH DISTINGUISHED PROFESSOR,

                STATLER COLLEGE OF ENGINEERING,

                    WEST VIRGINIA UNIVERSITY

    Dr. GangaRao. Honorable Congressmen, Chairman Webster, 
Members of Research and Technology Committee, I'm immensely 
grateful for your invitation to speak on my team today, which 
is the infrastructure renovation through smart composites 
manufacturing and construction, coupled with testing standards 
and enforcement.
    As all of you know in this room, our aging, perhaps aged 
infrastructure is rapidly deteriorating, certainly not 
collapsing. The bulk of our infrastructure problems can be 
attributed to $1.5 trillion funding gap between the revenue and 
the infrastructure needs for 2016 to 2025. This is costing 
$3,400 per year per family and leading to 2.5 million fewer 
jobs and, even more importantly, $7 trillion loss to 
businesses.
    How to bridge this need versus a revenue gap? The--do we 
need more debt? Do we need to increase the gas tax? A couple of 
these will have adverse effects on our economy, as you all 
know. Today, I want to present an alternative to this august 
body that is about instead of replacing crumbling 
infrastructure, as our Congressman Lipinski pointed out, we 
should provide resources to renovate our infrastructure to get 
the biggest bang for the buck using advanced composite 
materials.
    Currently, composites account for less than one percent of 
the structural materials by volume in spite of their many 
advantages such as the high-strength corrosion resistance, 
lighter weights, and better performance per unit weight.
    What are the challenges ahead and what are the economic 
advantages? Producers of steel and concrete should not view 
composites as a competitive product or as a threat to their 
markets. Composites will never fully replace traditional 
materials, but they are another tool in a toolbox, and they 
would be hybridized well with steel and concrete.
    Through our National Science Foundation-funded center, the 
Center for Integration of Composites into Infrastructure, we 
have shown composite wraps have been used to renovate several 
deteriorated structures at five to ten percent of the 
replacement cost by repairing some of the concrete piers, steel 
piles, and the list goes on.
    At West Virginia University, we worked on lighter bridge 
decks weighing only about 1/4 of a typical concrete deck. We 
worked on sheet piles with other industry folks to protect 
hostile erosions using composites. We developed utility poles 
that cost half the cost of steel transmission towers, and we 
also are developing high-pressure gas pipes to push more gas at 
a faster rate. We are involved heavily in navigational 
structures such as the lock gates, and the list goes on.
    Efforts are underway to develop composite modular housing 
subsystems that are multifunctional, multimodal, mold free, and 
durable. Using smart manufacturing and construction methods, 
housing costs can come down dramatically, as it has been done 
by Henry Ford's assembly line-type operations.
    To be at the cutting edge of research, development, and 
innovation of composites and infrastructure, NIST workshop--as 
alluded now a few minutes ago--of 2017 identified five critical 
areas to be overcome. One of them we can do here is to help the 
industry develop smart manufacturing and construction tools 
with composites and also develop uniform codes and project 
qualification through third-party certification, need to 
require future projects to consider composites as alternate 
designs. We need to invest in 3.2 million workers dealing with 
the designs, contracts, maintenance, and management of 
composites.
    In conclusion, composites are cost-effective and durable. 
Large-scale applications of composites will create huge markets 
and open new opportunities, including the smart rehab methods 
and educating 3.2 million American workers dealing with the 
construction-related industry. To enhance American productivity 
of workers, we must invest in the composites in terms of 
research development and implementation.
    Finally, to maintain public safety, investment in 
infrastructure restoration through composites and hybridization 
with conventional construction materials have to be made in 
tandem with standardization of products and quality control.
    Thank you very much.
    [The prepared statement of Dr. GangaRao follows:]


   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     
    Mr. Webster. Dr. Lange, you're recognized for five minutes.

                 TESTIMONY OF DR. DAVID LANGE,

                 PROFESSOR, DEPARTMENT OF CIVIL

                 AND ENVIRONMENTAL ENGINEERING,

           UNIVERSITY OF ILLINOIS AT URBANA-CHAMPAIGN

    Dr. Lange. Chairman Smith, Ranking Member Lipinski, and 
other Committee Members, I appreciate this kind introduction an 
opportunity to share my ideas today.
    I wear two hats today, one as Professor of Civil 
Engineering at the University of Illinois, the second as 
President of the American Concrete Institute, an organization 
of 20,000 members from the construction industry, the design 
profession, and academia.
    FRP is a class of high-strength, low-weight, and durable 
materials that can be fabricated in a wide array of shapes and 
properties. The attractive aspects of FRP have motivated 
significant investment in research and many funded 
demonstration projects over the years.
    Despite attractive attributes and a successful track record 
in field demos, we do not see a widespread adoption of FRP in 
construction today. Certainly, one explanation is the presence 
of two dominant design paradigms in commercial construction: 
reinforced concrete and structural steel. These tried-and-true 
systems have a 100-year head start on FRP.
    Furthermore, concrete and steel technologies are not 
standing still. Large organizations like the American Concrete 
Institute work tirelessly to advance these technologies. A 
century of commitment at ACI assures that today's concrete is 
not your father's concrete.
    The adoption of FRP depends on a wider effort to harmonize 
material systems. The two dominant silos--concrete and steel--
need effective crosstalk and openness to new material such as 
FRP. It can be done. As an example, ACI has opened a path for 
use of FRP rebar, and ASTM has released specification language 
for those bars.
    Market penetration of FRP should be driven by authentic 
advantages: durability, low weight, organic shapes, 
flexibility, high-strength capacity. Those are among the 
competitive advantages of FRP.
    Indeed, FRP has excelled in certain applications. The 
aircraft and marine industries and more recently the market for 
wind turbine blades and cooling towers have embraced FRP. In 
construction, FRP products have found a place in market niches 
such as corrosion-proof rebar and as a material for repair of 
concrete structures.
    Despite seemingly high potential for FRP and 
infrastructure, the topic is almost nonexistent in civil 
engineering education. Courses dedicated to FRP and structural 
repair are rare among the 220 civil engineering programs in the 
United States. Engineering education has not functioned as a 
change agent.
    There are opportunities to affect civil engineering 
education. Like other professions, civil engineering is moving 
toward requiring more than a bachelor's degree to practice in 
the profession. As master's degrees grow, the curriculum can 
better accommodate specialty topics like FRP if the need from 
industry were to drive it. Beyond that, we need courses that 
harmonize concrete, steel, masonry, wood, and FRP. The future 
is a world with better integration of material systems.
    Now, a few words about the NIST roadmap. I think the 
roadmap has attractive elements. In particular, I'm drawn to 
one of the recommendations related to the design data 
clearinghouse barrier. The idea is to charge NIST as a neutral 
party to compile durability data and define limits using codes 
and standards. Indeed, we can see how codes and standards can 
spur adoption of FRP. The 2017 release of ASTM D7957 for FRP 
rebar has already had impact on the ability for that product to 
be specified and designed. Just days ago, an industry 
representative shared with me his positive outlook that is 
based on an upswing in FRP bridge deck projects in recent 
months.
    I also endorse the roadmap plan for its emphasis of FRP 
curriculum for civil engineers. Given the large body of 
existing research, it is reasonable that federal funding could 
foster a modernization movement for civil engineering 
curriculum that bolsters design of FRP and harmonized material 
systems.
    Lastly, I want to encourage use of a proven mechanism 
available to the Federal Government. That is research centers 
that incubate partnership between academia and industry. My own 
experience as Director of the Center for Excellence for Airport 
Technology has persuaded me that large infrastructure programs 
can benefit from sustained partnership with universities. Since 
2005, CEAT has received funding from the O'Hare International 
Airport and the Chicago Department of Aviation. Every year, we 
select our research projects to inform the decision-making 
process, reduce risks, and save money. Our 12-year track record 
with O'Hare suggests this has been a successful model. Thank 
you.
    [The prepared statement of Mr. Lange follows:]




   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Chairman Smith. [Presiding] Thank you, Dr. Lange. And Mr. 
Weyant?

               TESTIMONY OF MR. SHANE E. WEYANT,

                       PRESIDENT AND CEO,

                   CREATIVE PULTRUSIONS, INC.

    Mr. Weyant. Good morning. Chairman Smith, Ranking Member 
Lipinski, and the Members of the Subcommittee, on the behalf of 
Creative Pultrusions and my fellow members of the American 
Composite Manufacturers Association, I appreciate the 
opportunity today to testify before you on an issue that is 
vital to our industry involving the essential role NIST plays 
in materials standards. I am happy to be here to explain the 
value that composites offer consumers, communities, and 
industries across the nation. With manufacturers in each of 
your districts, we're a great example of made-in-America 
manufacturing, whose potential has only begun to be realized.
    Composites are stronger than other materials such as steel, 
concrete, and wood. They are lighter and more energy-efficient 
and easier to transfer and install. They offer greater 
durability and, most importantly, are resistant to corrosion 
and structural degradation. Many of you are already familiar 
with fiberglass boats. Saltwater destroys traditional metal and 
wood hulls, but fiberglass remains unscathed after decades of 
service and has come to dominate that sector due to the 
performance.
    Using the same material system, we and other composite 
manufacturers provide infrastructural solutions with 
performance and other benefits that can far exceed traditional 
materials of construction. Let me highlight a few examples: 
composite bridges that can be manufactured offsite, installed 
in less than one day with less traffic disruption, and that 
require minimal maintenance throughout their service life; 
composite rebar that can replace steel rebar in traditional 
concrete construction and is resistant to rust so it won't 
degrade; composite utility poles and cross arms that are easier 
to install are more durable against extreme weather and fire, 
require less maintenance, and last significantly longer. Only 
eight utility poles were left standing in the Virgin Islands 
this past year after the hurricanes. Those eight poles were 
composite poles.
    Despite these benefits, barriers to deployment of 
composites remain. Fortunately, some of these obstacles can be 
cleared with the help of sensible government and industrial 
participation. A great first step was the 2017 workshop that 
brought folks from NIST together with a wide range of private 
and public stakeholders to work towards solutions. I felt the 
workshop was a great example of positive engagement between 
industry, academia, and government because it produced 
actionable results.
    What we know from experience is that the lack of awareness 
of--and, importantly, standards for--composites is our 
threshold problem. NIST can aggregate existing standards and 
design data for composites and validate them for broader 
dissemination and use. This will help all stakeholders to see 
the totality of data on composites and understand the further 
research needed. Their world-class laboratories also can help 
develop durability and performance testing for composite 
infrastructure products. This data can support further 
development of standards of composites and better arm engineers 
with the performance knowledge to make them more comfortable 
with using composite.
    Given NIST's role in standards in research, the agency has 
a unique capacity to assemble a broad swath of stakeholders and 
ensure that this work is impactful. We believe all materials, 
techniques, and designs should stand on their own merit. Our 
experience with builders and project engineers show that there 
is a limited knowledge about composites as a structural 
material throughout the design community. Additional research 
and data that can contribute to standards development will help 
raise the knowledge about composites.
    Likewise, bringing together the various agencies 
responsible for infrastructure investment to participate in 
this effort can help diffuse knowledge to the asset owners and 
designers. An existing example of similar collaboration is what 
is going on with the Institute for Advanced Composite 
Manufacturing and Innovation. Part of the Manufacturing USA 
network, IACMI, working with academia and industry and federal 
agencies, has developed an exciting new technology to recycle 
composites. Productive collaboration demonstrates that federal 
investment in composites pays huge dividends and, coupled with 
further structural research by NIST we discovered today, will 
help composites contribute more to the overall sustainability 
of our infrastructure network.
    The demands placed on America's infrastructure have never 
been greater. To build a network to support the 21st century 
population and economy, there needs to be greater availability 
of 21st century technologies. With some smart investment and 
hard work together, we can make bridge, water systems, and grid 
failures something of the past. The ability to build structures 
that last centuries instead of years is here. We look to 
Congress for support to help make this happen. Thank you.
    [The prepared statement of Mr. Weyant follows:]
  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Mr. Hultgren. [Presiding] Thank you all so much. I 
appreciate your testimony. I appreciate you being here.
    I'm going to wait with my questions and recognize the 
gentleman from Indiana first for five minutes.
    Mr. Banks. Thank you, Mr. Chairman. And thanks to each of 
you for being here this morning.
    We all recognize the need to improve our nation's 
infrastructure, but we also recognize the precarious fiscal 
situation that we find ourselves in today. The CBO estimates 
that we are on track to run $2 trillion annual deficits by 
2028. The CBO also found that we will run $82 trillion in total 
deficits over the next 30 years. We need to focus on reducing 
government spending wherever we can.
    So from what I understand, the main benefit to using 
composite materials as opposed to steel or concrete is the 
reduction in maintenance costs over the long term. So my first 
question for each of you, is there any data on what kind of 
cost savings can be expected over a 20 or 30 years by using 
composite materials for various infrastructure projects? Dr. 
Chin?
    Dr. Chin. My colleagues from the industry would have more 
specific figures on the actual cost savings, but we're very 
much aware of studies and existing installations that have 
demonstrated great reductions in installation costs, impact on 
the economy in regards to road blockages and delays, as well as 
maintenance and repair, as well as replacements over the 
lifetime of the structure.
    Mr. Banks. Okay.
    Dr. GangaRao. Thank you. As I stated in my testimony, we 
have rehabilitated over 100 structures across the country from 
West Virginia University's Constructed Facilities Center. I'll 
give you two examples and I'll shut up. One of them is the East 
Lyn Viaduct. We rehabilitated it for about 20 percent of the 
cost of replacement in Parkersburg, West Virginia. When I took 
that job, they said if it survives five years, back in 1999, 
they said they would be happy. Last year, we collected the 
data, and it looks brand new.
    The second example I'd like to quote, which I have done the 
rehabilitation renovation part, was for Army Corps of 
Engineers. Again, we were able to rehab that complex bridge 
system with $120,000 while in fact it would have costed $4 
million to replace it. So the list goes on. I'm not going to 
stand here and talk about it anymore. But I would be very happy 
to supply you with all the cost data and also the durability 
data if you need.
    Mr. Banks. Okay.
    Dr. Lange. Your remarked that the main benefit of FRP is 
reducing maintenance costs. I think there's truth in that 
because FRP is a very effective repair material. We're seeing 
FRP used in sheet products that are put onto reinforced 
concrete structures. It's one of the least-expensive ways to 
add strengthening in many cases.
    But I'm not sure I would say it's the main benefit of FRP. 
I think having a landscape for design--multiple materials being 
used, a real portfolio of materials--is where we could get even 
more benefit in the future. I think there's been some 
limitation to have civil engineering organized in silos where 
you have the reinforced concrete community, the structural 
steel community working somewhat independently and FRP 
wondering how do we fit into this situation.
    And I think there's probably a higher calling to try to 
figure out how to give all materials sort of equal access. In 
some respects engineers should be material agnostic. I don't 
really care what particular material is used, I want to get a 
result. And having more materials available will be the best 
benefit of having FRP in the game.
    Mr. Banks. Okay. And, Mr. Weyant, before you answer that 
question, perhaps with the time left as well you can answer the 
question of what would the cost-benefits of replacing or 
restoring electric lines with FRP composite poles be?
    Mr. Weyant. On the electric line, it's more in the 
reliability, how they withstand a lot of the storms. We see 
that a lot with a lot of the electric companies. They're 
understanding that value now by investing in composites for 
that reliability.
    As far as the lifecycle, I look at it a couple ways, not 
only on the maintenance side, it's also the installation side. 
We have seen cooling towers, marine markets with sheet piling, 
and also in the utility industry that we have seen probably 30 
percent overall lifecycle cost savings when using composites.
    Mr. Banks. Thank you. My time is expired.
    Mr. Hultgren. The gentleman from Indiana yields back.
    I recognize the gentleman from Illinois, the Ranking 
Member, Mr. Lipinski for five minutes.
    Mr. Lipinski. Thank you. I wanted to say, first of all, 
that as Mr. Banks was talking about the savings for government 
and for taxpayers, which I think is critically important, the 
other part that I wanted to ask about is the--what can we do as 
policymakers here in Washington to make sure that the United 
States maintains a strong position in producing in these 
materials? Obviously, FRP, when we're talking about even things 
as large as bridges can be, you know, put together elsewhere 
and brought over to the United States to be put in place. We've 
seen that with concrete and steel bridges. So what can we do to 
try to make sure we have the right incentives in place for the 
United States to really--our economy and jobs to thrive in 
this--with FRP? So let's start with Dr. Lange.
    Dr. Lange. Well, one thing that I would like to emphasize 
is that there is opportunity when we have very large 
infrastructure programs. O'Hare just announced another $8.5 
billion program that will add a terminal to the west side of 
O'Hare, and these kind of major infrastructure programs extend 
for many years.
    The opportunity to partner with university researchers to 
help answer questions about what is going on in that project 
and how new materials might come into it, how new technologies 
might benefit the project, that I think is a great opportunity. 
The relationship we've experienced in working directly with a 
major infrastructure program is not terribly common. It's a 
little bit unusual that we have that kind of a partnership. But 
I believe it could be a very good policy moving forward that we 
have these major programs to pay attention to the research 
landscape.
    Mr. Lipinski. Anybody else? Dr. GangaRao?
    Dr. GangaRao. Thank you. Thank you. I have indicated six 
different approaches of how we can keep the lead in terms of 
our high-quality products based on composites in my writeup. 
And I'll talk about a couple of them. One of them is that we do 
not want to be a dumping ground for some inferior product from 
outside. Therefore, we need to maintain very high standards and 
also enforce these standards of the materials that we are going 
to be introducing as composites or for that matter as a 
hybridized material, including the conventional materials like 
steel and concrete. That's one. I can elaborate on that much 
more later.
    The second important thing is we need to come up with smart 
manufacturing for infrastructure point of view in terms of 
creating as large a subsystem as possible under the 
manufacturing settings so that we gain certain degrees of 
efficiencies and be able to reduce any form of waste that we 
have right now. We're 40 percent waste in the construction 
industry. So these are the two I would like to focus on. I have 
four other items I mentioned in my writeup. Thank you.
    Mr. Lipinski. Thank you. Mr. Weyant, do you have anything 
to add?
    Mr. Weyant. Yes, I echo Dr. Lange and Dr. GangaRao's 
position. I think government needs to take a strong position in 
two areas. We need to invest to enhance the development of the 
technologies to keep us on the forefront and the materials, you 
know, to be produced in the United States. Also, we need to 
rebuild America with the right materials. While we're facing 
these problems of the large spend on building the 
infrastructure is because these materials are not lasting. We 
got products here that can be 50 years plus design service 
life, so down the road, the payback is, as I said earlier, on 
the lifecycle. So we need to make that choice today to rebuild 
America the right way and put people back to work.
    Mr. Lipinski. And Mr. Weyant, it probably may surprise you 
that I have driven through Pleasantville many times on my way 
from here to Johnstown, so I wanted to ask you about--do you 
have issues with labor force getting workers who are capable?
    Mr. Weyant. That is a big demand nowadays, but we reach out 
to a lot of the local high schools and a lot of the trade 
schools, very aggressive on recruiting. But, you know, to train 
people, too, you know, that is a concern. And in the rural 
area, as you know, Mr. Lipinski, that does put a big demand 
because we have a lot of expansion in our areas with a lot of 
different manufacturers.
    Mr. Lipinski. Thank you. I'm out of time. I yield back.
    Mr. Hultgren. The gentleman from Illinois yields back.
    I'll now yield myself five minutes. First, again, I want to 
thank you all for being here, for your testimony. For me this 
is an especially important hearing today. The State of 
Illinois, as my colleague and friend from Illinois has already 
stated, leads in materials science research conducted at our 
wonderful universities and national labs. I want to hear what 
we're doing nationally, but I always like to see how Illinois 
universities are testifying before this Committee. I'm grateful 
for that.
    Infrastructure is also a key priority with every local 
official I meet with, and it's why I work to preserve key tools 
for municipal finance in the tax reform bill that we had, such 
as the tax-exempt status for municipal bonds. Local officials 
understand the importance of both construction and maintenance, 
and they see the long-term impact of more resilient 
infrastructure. So thank you for your work.
    Dr. GangaRao, if I could address my first question to you. 
How would research at NIST be integrated in its standards 
development and used by standards development organizations?
    Dr. GangaRao. NIST has excellent facilities in trying to 
promote any kind of test methodologies, develop the test 
methodologies, and also enforce the testing systems. That's one 
way they can do it. The second way they can do it is by 
providing excellent platform in terms of educational aspects. 
There are half a dozen educational aspects that I can talk 
about. They can be the lead nuclei in developing some of these 
educational aspects.
    And thirdly, they have a great amount of technical know-how 
through their full-time employees, and they can certainly 
interact with not only the university types but also with the 
industry types to promote some of these kinds of advances in a 
most systematic fashion. Thank you.
    Mr. Hultgren. Thank you. Mr. Weyant, in your testimony you 
say that there is limited awareness by engineers and asset 
owners about the composites as structural material for 
infrastructure. I wonder if you could describe in more detail 
what you encounter?
    Mr. Weyant. A lot of times when we approach the design 
community when you have to introduce a composite material, a 
lot of the traditional materials have design codes, okay? They 
have their own handbooks. When you buy a steel beam from XYZ 
company versus ABC, you know you're getting the same steel 
beam. Those standards need to be developed, you know. 
Composites being fairly new in the construction market, you 
know, really came about in the mid-80s to '90s. Those 
standards, a lot of the engineers do not understand them. So we 
have to educate them. And a lot of the companies are a lot 
smaller and don't have those resources to really put, you know, 
in the technical design capabilities to help educate the 
engineering community.
    Mr. Hultgren. Thanks. Dr. Chin, it's been cited in numerous 
reports, including one in 2014 by the President's Council of 
Advisors on Science and Technology that composites are a 
crosscutting enabler for the manufacturing technology of the 
future supporting not only infrastructure but also automotive, 
aerospace, energy, and other key sectors. I wonder if you could 
elaborate on the strategic importance of composites to the 
national economy?
    Dr. Chin. In regards to the more general application of 
composites in the sectors that you mentioned, the weight 
reductions through the use of composite materials enable energy 
savings. That's the primary driver in the aerospace, marine, 
and automotive industries.
    In infrastructure, it's not a matter of designing based on 
weight constraints, but the availability of composite materials 
that can be prefabricated, premanufactured offsite, brought to 
the construction sites, and installed much more quickly. The 
weight savings in this particular case also lends itself to 
much more rapid installation, which mitigates the delays, 
obstacles, roadblocks, all of the issues involved with 
construction projects that reroute people and goods around the 
points where the construction is taking place. Those have an 
impact that may not be as measurable in terms of economic 
return on investments, but you can definitely see the impacts 
on the lost time. And just in terms of the process of getting 
people and goods from point A to point B, there is definitely a 
dollar value associated with those benefits of composites as 
well.
    Mr. Hultgren. Thank you. I'm just about out of time. I may 
follow up if that's all right with you. I had a question just 
in regards to opportunities for students and graduates to 
obtain hands-on experience with composites with internships and 
research, so I may follow up to see if I can see if you have 
suggestions or ideas from that.
    With that, my time is expired, and I will recognize the 
Ranking Member of the full Committee, Ms. Johnson from Texas, 
for five minutes.
    Ms. Johnson. Thank you very much, Mr. Chairman and Ranking 
Member Lipinski, for holding this hearing. And thanks to all 
the witnesses for being here.
    In addition to this Committee, I serve as a senior member 
of Transportation and Infrastructure. And I really do 
understand the challenges that we face in crumbling 
infrastructure. My home district of Dallas, Texas, was recently 
named the fastest-growing metropolitan area in the country by 
the U.S. Census. It also rated it as the 10th worst city in the 
nation for traffic congestion in another recent report. And 
though there has been great improvement from last year's 
position, which was number five, commuters still face a daily 
tackle with bottlenecks, wasting time and fuel, and this is a 
struggle for many communities, I'm sure.
    And while it is an example of perhaps reaching the stars, 
I'd like you to explain to me what your feelings are about what 
type of emerging technologies that we will be looking at for 
our infrastructure needs, and also, how would we go about 
preparing our workforce? I'm particularly interested in the 
emphasis on resilience and materials that we use and the talent 
that's needed. We're already looking at aerial transportation, 
drones, and all kind of alternative things. What seems to be 
realistic? And I'd like to hear from each of you.
    [The prepared statement of Ms. Johnson follows:]
  
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    Dr. Lange. Well, let me chime in with one idea here. One 
thing that I would like to add about this discussion about 
durability is that if you want durable infrastructure, you need 
to ask for durable infrastructure. And kind of an old saying, 
you get what you ask for. Too often our contracting mechanism 
is based on a low bid when people are asked to, say, build a 
road or build infrastructure, the winner of that competition is 
the one who prices it the lowest.
    And when you look at the specifications, they don't 
emphasize durability like they should. They don't emphasize 
lifecycle, as they should. The choice is made on initial cost 
rather than by lifecycle cost where you take into account the 
full length of service life of the structure and its 
maintenance cost. So one issue that is a policy issue is how 
can we move more toward performance specification and looking 
at lifecycle cost.
    Ms. Johnson. Thank you. Yes?
    Dr. GangaRao. I'd like to start out by stating certain 
issues with regards to resilient infrastructure. With my center 
that is the NSF-sponsored one dealing with the composites for 
infrastructure, University of Texas at Arlington is a member of 
our center, and they have been using composite to try to 
minimize your expansive shale problems for your foundations and 
the roads, so there again, we need to use some of these 
advanced materials that would help enhance the service life of 
each and every one of these infrastructures. That's just one of 
the many other parts.
    The other part is we need to marry these advanced materials 
with the conventional materials so that the longevity can be 
improved, the traffic jams can be cut down, and what have you. 
And there are many other transportation systems, including some 
of the electronics that are going to be built into it coming 
into vogue that will greatly enhance the efficiency of movement 
from point A to point B. Thank you.
    Ms. Johnson. Thank you very much. Anybody else?
    Dr. Chin. So one of the big national multiagency programs 
that NIST is involved with is the Materials Genome Initiative. 
And through that program, we seek to accelerate the development 
of these innovative materials that can be used in 
infrastructure, as well as many other industry sectors. But 
this type of program would enable materials scientists and 
engineers and designers to be able to receive the benefits of 
materials developed at a much faster rate, which could 
potentially be used in infrastructure and making it more 
resilient to natural disasters and other types of high impacts.
    We also have a Community Resilience Program which seeks 
also to develop more infrastructure--more resilient materials 
for use in infrastructure.
    Ms. Johnson. Thank you. My time is expired.
    Mr. Hultgren. The gentlewoman from Texas yields back.
    The gentlewoman from Connecticut, Congresswoman Esty, is 
recognized for five minutes.
    Ms. Esty. Thank you very much. And again, I want to thank 
the Chairman and Ranking Member for holding today's hearing. 
You'll find I think all of us are on the Transportation 
Committee, and there's a reason that we're also on this 
Committee, because we recognize the important challenges facing 
the country on resiliency in our infrastructure, the aging 
infrastructure laid out so well by you.
    I've also been working on this, and I want to make sure to 
get copies of this for each of you. There's a bipartisan group 
of Democrats and Republicans in the House called the Problem 
Solvers Caucus. And I was the Co-Chair of this report, which we 
released in January, making several of the points that you've 
underscored, Dr. Lange. You just recently talked about the 
importance of lifecycle costs. We're specifically calling for 
that. My father and grandfather were both civil engineers. I 
know exactly what you're talking about, and it is the low-bid 
problem that's always been a problem but never more acute than 
now when we really need to be looking at the entire cycle of 
the cost, better from day one and lasting much longer.
    I'm also Co-Chair of--and Co-Founder of the Corrosion 
Caucus, so we've been looking at these issues in the Resiliency 
Caucus, the importance of upgrading those requirements.
    So I wanted to also flag--again, so you know, that a number 
of us have been working on this in multiple committees. We've 
called for the creation--in the report we called for the 
creation of something like an ARPA H2O to look at the water 
infrastructure, which is often not included in the civil 
engineers' report because that alone is, you know, approaching 
$1 trillion of unmet needs to replace and upgrade the nation's 
water infrastructure. So when I get to questions, I'd ask for 
your thoughts of whether you think something like an ARPA H2O 
make sense for basic research, especially given that water is 
delivered at the local level and cannot possibly have the 
research facilities to figure out if you're Detroit and you 
need to reduce the size of your mains by 3/4 to keep the flows 
in place, they can't be paying for that research. It's just not 
reasonable. We need to have a federal role in that.
    Chairwoman Comstock and I, who chairs this Subcommittee, 
are getting ready to introduce a bill in the coming weeks on 
this basic issue of composites, on the importance of 
highlighting the need to include this as innovation and to 
include this with new standards. One of the pieces we've looked 
at are calling for--and it's the IMAGINE Act, the Innovative 
Materials in American Grid and Infrastructure Newly Expanded--
you can tell that was put together to make out IMAGINE--but the 
IMAGINE Act calls for the creation of an interagency innovative 
materials task force to assist in some of these issues we've 
talked about this morning for assessing existing standards and 
test methods and then compare them against these new materials 
and how they compare.
    The interagency task force would work to identify key 
barriers in the current standards that inhibit market 
adaptation and adoption and develop new methods of protocols, 
as necessary, to encourage incorporations. This interagency 
task force would be chaired by NIST, by the National Institute 
of Standards and Technology, bringing together the Federal 
Highway Administration, the Army Corps of Engineers, and EPA, 
and other standard regulatory agencies.
    So, Dr. Chin, can you comment on whether you think that 
would be helpful to have a coordinated effort across the 
agencies which otherwise are siloed, as we know, which is a 
huge problem. Thank you.
    Dr. Chin. Yes, NIST has had a very long history of 
collaborating with other federal agencies and other primary 
stakeholders in big national initiatives such as the one that 
you're describing. We are absolutely committed to working in 
the area of water. That is definitely seen as an area of great 
importance to the nation.
    Ms. Esty. And what's your thoughts on something--or any of 
you--on something on the basic R&D side, something like an ARPA 
H2O? Is that--do we think we're at a point that there should be 
basic research, or is it more a function of standards and 
dissemination of best practices?
    Dr. Lange. Well, I think on the subject of basic research, 
you're touching on one of the biggest challenges that we have, 
and that is the durability and interaction of materials with 
their environment. Dr. Chin talked about how NIST has a long 
history of looking at durability issues. I think that the 
durability topics are more challenging and more necessary than, 
say, looking at mechanical properties of materials. And so I 
would encourage that kind of direction of looking at durability 
first.
    Ms. Esty. Thank you. Go ahead.
    Dr. GangaRao. Basic research is always extremely important, 
no question about it. However, to get the biggest bang for your 
buck, a good bit amount of monies have to be invested in field 
implementations, experimentation, and evaluations as soon as 
possible so that we establish a protocol of how to do some of 
these in the field and able to disseminate this knowledge base 
in a widescale manner. Thank you.
    Ms. Esty. Thank you very much, and I see I'm out of time. 
Thank you.
    Mr. Hultgren. Thank you, the Gentlewoman from Connecticut 
yields back.
    The gentlewoman from Oregon, Ms. Bonamici, Congresswoman 
Bonamici is recognized for five minutes.
    Ms. Bonamici. Thank you very much, Chairman Hultgren and 
Ranking Member Lipinski. And thank you to all of our witnesses 
for being here today. I'm very glad that we're discussing 
infrastructure. And listening to my colleague talk about things 
like the Corrosion Caucus, you know that we're all interested 
in this issue.
    We know that making long-term investments in our nation's 
infrastructure stimulates the economy, creates jobs, and drives 
commerce. And as we restore our roads and bridges and build 
affordable housing and invest in public transit and upgrade our 
schools and ports and water systems, we need to be responsive 
to environmental concerns but also creative in the use of 
emerging materials.
    And I am the Co-Chair of the Oceans Caucus, and marine 
debris is one of our priorities. And recently, I've been 
reading about projects that integrate plastic bottles and 
materials salvaged from debris in the ocean into asphalt to 
create more durable roads. And this is the kind of ingenuity we 
need as we develop an infrastructure proposal. And I know the 
Chairman of the full committee has gone, but I know that Texas 
is working on a pilot project on this as well.
    At Oregon State University in my home state, the Kiewit 
Materials Performance Lab has been one of the leaders in 
innovative efforts to test composite materials. The lab is 
conducting sensitive electrochemical investigations to study 
both corrosion phenomena and metals and alloys and the 
performance and durability of coatings and composite materials. 
And I visited there, and they're doing some great work.
    Dr. Lange, I wanted to ask you how federally funded 
researchers at universities can best partner with engineers in 
the private sector to support continued advanced research 
testing and standards development?
    Dr. Lange. I would say that one of the themes that I have 
hit on, this idea of partnering with major infrastructure 
programs. This is something I would put back on the table. I 
think that when you're spending, as O'Hare is going to spend $8 
billion on the next phase of expansion of the airport, there 
should be a piece of that investment used for looking toward 
the state-of-the-art. Engineers working on everyday tasks may 
not have time to see that state-of-the-art very clearly, but in 
partnership with universities, perhaps they can.
    With respect to recycled materials, I think that's a great 
theme to continue to hit. One thing I would encourage is that, 
as you think about recycling materials, try to have some 
integrity about what you're trying to do with these materials. 
Sometimes uses of recycled materials are almost using concrete 
as a trash can. How many things can we throw into concrete or 
asphalt without caring about the degradation of properties that 
happens when we do it? Wwe really want to find synergy where we 
get not the only use of recycled material but improvement of 
properties, not a degradation of properties.
    Ms. Bonamici. Right. Absolutely. Well, I'm from Oregon; we 
recycle everything. So in northwest Oregon, it's not a question 
of if but when a tsunami triggered by an earthquake happens. We 
have the Cascadia Subduction Zone is going to hit our state. We 
are overdue. So we've been having many conversations about 
rebuilding our infrastructure to withstand these natural 
disasters. And in the district I represent, the Newberg Dundee 
Bypass has just been built to withstand a 9.0 earthquake.
    But an earthquake is not the only threat facing our 
Nation's infrastructure. We also need to be resilient to the 
effects of climate change. And of course with the ocean, we're 
seeing acidification, we're seeing more extreme weather events. 
What is the current state of our understanding of how climate 
change affects infrastructure, and how has that understanding 
shaped the composites research agenda and standards development 
to make sure that resiliency is a factor? And anybody who wants 
to weigh in on that.
    Dr. GangaRao. I want to answer a couple of things along 
those lines. Before I do that, I want to talk a little bit 
about the recycling aspect of it. At West Virginia University, 
we have been doing a lot of recycling of composites. For 
example, we can talk in terms of low-grade material recycling, 
as well as a very high-grade material recycling, and we have 
done polymers to recycle and create core material that are of 
low value while in fact create a very high-grade material as a 
shell for a given system--
    Ms. Bonamici. Interesting.
    Ms. GangaRao. --and that helped a great deal. And also, we 
are partnering now with Mexico. CONACYT is an equivalent of NSF 
of ours where they want to recycle a lot of their high-end 
composites coming out of aerospace and other places.
    There are three or four different ways of recycling it. One 
is just simply burn it. That's not the best approach. There are 
a few other chemical ways of recycling, and we are looking at 
those kinds of things as well to enhance our productivity 
levels in the area of composites as opposed to dumping in the 
oceans like you're referring to.
    Ms. Bonamici. Right. Right. Thank you. And just--I know I'm 
out of time, but with the Chairman's indulgence, would you 
address the climate change issue?
    Ms. GangaRao. Well, I don't know a whole lot about the 
climate change. As Dr. Chin pointed out, I think the amount of 
energy required to produce a unit pound of a composite per unit 
workability and the efficiency of a composite is much less than 
steel or concrete.
    Ms. Bonamici. Thank you. I yield back, Mr. Chairman. Thank 
you.
    Mr. Hultgren. Thank you. The gentlewoman from Oregon yields 
back.
    I want to thank all of our witnesses for your testimony and 
all the members for their questions today. I also do want to 
send regards from Chairwoman Comstock, who really wanted to be 
here but was not feeling well today, so she sends her regards 
and gratitude for each of you being here.
    The record will remain open for two weeks for additional 
written comments and written questions from Members.
    Mr. Hultgren. With that, the hearing is adjourned. Thank 
you so much.
    Dr. GangaRao. Thank you very much.
    [Whereupon, at 11:10 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
